B

No.

ORIGINAL
IN THE

FILED
SEP 2 9 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

SUPREME COURT OF THE UNITED STATES

In re Matthew James Leachman, Petitioner

ON PETITION FOR WRIT OF MANDAMUS TO

The Honorable Priscilla R. Owen, Chief Judge,
United States Court of Appeals for the Fifth Circuit

PETITION FOR WRIT OF MANDAMUS

Matthew James Leachman
SPN 01525039
Harris County Jail
1200 Baker Street
Houston, TX 77002
(inmate--no phone)

ISSUE PRESENTED

The Honorable Priscilla R. Owen, Chief Judge of the United States Court of Appeals
for the Fifth Circuit, failed to comply with the mandatory provisions governing judicialconduct proceedings.

LIST OF PARTIES
[XXX] All parties appear in the caption of the case on the cover page.
[ ]

All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
By rule, a petition for mandamus “shall follow, insofar as applicable, the form of a
petition for a writ of certiorari prescribed by Rule 14.” Sup. Ct. R. 20.2.
The definition of “directly related” set forth in Rule 14.1 (b)(iii) does not map easily
onto a mandamus petition asserting failure to act on a judicial-conduct complaint. The
following two cases are “related” because they inform the question of whether mandamus
will be “in aid of the Court’s appellate jurisdiction,” SUP. Ct. R. 20:
In the United States District Court for the Southern District of Texas: Civil Action
No. 4:18-CV-544 (judgment entered March 23, 2020).
In the United States Court of Appeals for the Fifth Circuit: Appeal No. 20-20323
(certificate of appealability denied April 19, 2021; motion for reconsideration denied June 9,
2021).

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

3

Introduction

3

Events that led to the judicial-conduct complaint

4

First predicate event—state convictions and sentences.............

4

Second predicate event—the outcome of 786224.......................

5

Third predicate event—TDCJ’s response to the new-trial order

6

Predicate court proceedings—state court....................................

6

Predicate court proceedings—federal district court....................

10

The State’s request for summary judgment.............................

10

My request for summary judgment..........................................

11

The question ofdeference.........................................................

13

Results in federal district court................................................

19

Predicate court proceedings—Fifth Circuit................................

21

Requestfor COA.......................................................................

21

Requestfor reconsideration.....................................................

22

Motions for panel and en banc rehearing...............................

24

The Clerk’s response................................................................

25

The judicial-conduct complaint
ARGUMENT
Indisputable right to relief

27
28
29

No other remedy

31

The issue warrants the Court’s attention

31

Direct harm—uncorrected discrimination

32

Broader harm—deprivation of appellate review

35

Pervasive harm—lack of federal review...........

38

40

CONCLUSION

INDEX TO APPENDICES
APPENDIX A — Letter of Chief Deputy Clerk Thomas B. Plunkett (Aug. 23, 2021),
responding to myjudicial-conduct complaint
APPENDIX B

My Complaint of Judicial Misconduct or Disability (mailed Aug. 11, 2021)

APPENDIX C — Letter of Deputy Clerk Monica R. Washington (July 30, 2021), advising
that the Clerk’s Office was “taking no action” on my motion to reconsider an earlier Clerk’s
decision (i.e., the motion at Appendix D)
APPENDIX D — My Motion for Reconsideration of Clerk’s Decision or, Alternatively,
Motion to Reopen for Consideration of Petitions for Panel Rehearing and En Banc
Rehearing (mailed July 26, 2021). The motion includes—as an Exhibit—the predicate
Clerk’s decision, expressed in the Letter of Deputy Clerk Donna L. Mendez (July 14, 2021)
My Motion for Panel Rehearing from Panel Order Denying Certificate of
APPENDIX E
Appealability and Motion for Rehearing En Banc from the same order (mailed together on
June 23, 2021). The latter motion includes—as an attachment—the panel’s per curiam Order
(June 9, 2021) denying my motion for panel reconsideration of Circuit Judge Willett’s single­
judge order (i.e., the motion at Appendix F)
APPENDIX F — My Motion for Panel Reconsideration of the Order Denying Certificate of
Appealability (mailed May 18, 2021). The motion includes—as an Appendix—a copy of my
Brief in Support of [My] Request for Certificate of Appealability, transcribed for the
convenience of the panel (the original, due to the Jail’s COVID restrictions, had to be
handwritten in blue ink)
APPENDIX G — Circuit Judge Willett’s Order (Apr. 19, 2021) denying certificate of
appealability

APPENDIX H — The judgment from the District Court denying relief (reported at Leachmcm v.
Davis, Civil Action No. H-18-0544, 2020 U.S. Dist. LEXIS 50217 (S.D. Tex. Mar. 23, 2020)
APPENDIX I — My Objections to Magistrate’s Memorandum and Recommendation, and
the Memorandum and Recommendation itself (reported at Leachman v. Davis, Civil Action
No. H-18-0544, 2020 U.S. Dist. LEXIS 51170 (S.D. Tex. Feb. 12, 2020))
APPENDIX J — My Response to the Director’s Second Motion for Summary Judgment
and Petitioner’s Cross-Motion for Summary Judgment in the district court
APPENDIX K — My Petition Under 28 U.S.C. § 2254 for Writ of Habeas Corpus (form AO
241) with attached Statement of Facts
APPENDIX L — The text of the statutes and rules that are involved in the mandamus issue
and in the predicate events giving rise to the mandamus issue

■

TABLE OF AUTHORITIES CITED
Cases
passim

Bouie v. City of Columbia, 378 U.S. 347 (1964)

28, 29

Cheney v. United States Dist. Court, 542 U.S. 367 (2004)
Cullen v. Pinholster, 563 U.S. 170 (2011)

13

Ex parte Barnaby, 475 S.W.3d 316 (Tex. Crim. App. 2015)

16

Ex parte Carter, 521 S.W.3d 344 (Tex. Crim. App. 2017)

18

Ex parte Dawson, 509 S.W.3d 294 (Tex. Crim. App. 2016)

17, 18, 19, 23

Ex parte Leachman, No. WR-36,445-04 (Tex. Crim. App. Dec. 1, 2010)

5

Ex parte Leachman, No. WR-36,445-06 (Tex. Crim. App. Feb. 22, 2017)

8
passim

Ex parte Nickerson, 893 S.W.2d 867 (Tex. Crim. App. 1995)
Ex parte Reed, 271 S.W.3d 698 (Tex. Crim. App. 2008)

16

Ex parte Valdez, 489 S.W.3d 462 (Tex. Crim. App. 2016)

19
7, 16

Ex parte Vela, 460 S.W.3d 610 (Tex. Crim. App. 2015)

7

Ex parte Waggoner, 61 S.W.3d 429 (Tex. Crim. App. 2001)
Gentry v. State, 464 S.W.2d 848 (Tex. Crim. App. 1971)

6, 7, 12,20

Goodwin v. Page, 418 F.2d 867 (10th Cir. 1969)
Harrington v. Richter, 562 U.S. 86 (2011)
Hartfield v. Thaler, 403 S.W.3d 234 (Tex. Crim. App. 2013)
Johnson v. Williams, 568 U.S. 289 (2013)

12
passim
17
15,38

Kernan v. Hinojosa, 136 S. Ct. 1603 (2016)

17

Leachman v. Davis, No. H-l8-0544, 2020 U.S. Dist. LEXIS 50217 (S.D. Tex. Mar.
23,2020)......................................................................................................................

10

Leachman v. Davis, No. H-18-0544, 2020 U.S. Dist. LEXIS 51170 (S.D. Tex. Feb.
12,2020).....................................................................................................................

10

Leachman v. State, No. 01-98-01255-CR, 2006 Tex. App. LEXIS 7345 (Tex.
App.—Houston [1st Dist.] Aug. 17, 2006, pet. refd)...................................

5

Leachman v. Stephens, 138 S. Ct. 1550 (2018)

3

Leachman v. Stephens, 575 U.S. 1012 (2015)

3

Leachman v. Stephens, 581 Fed. App'x 390 (5th Cir. 2014).................................

5

Leachman v. Stephens, No. 4:1 l-CV-212, 2015 U.S. Dist. LEXIS 133186 (S.D.
Tex Sept. 30, 2015)..............................................................................................

5

Leachman v. Texas, 139 S. Ct. 2727 (2019)

3
3,5

Leachman v. Texas, 554 U.S. 932 (2008)
McIntosh v. Partridge, 540 F.3d 315 (5th Cir. 2008)

22

Meadows v. Blackwell, 433 F.2d 1298 (5th Cir. 1970)

12
passim

Ochoa Canales v. Quarterman, 507 F.3d 884 (5th Cir. 2007)

21

Shore v. Davis, 845 F.3d 627 (5th Cir. 2017)

10, 11, 12

Teague v. Lane, 489 U.S. 288 (1989)
Tennardv. Dretke, 542 U.S. 274 (2004)

25

Thomas v. State, 516 S.W.3d 498 (Tex. Crim. App. 2017)

16

United States v. Cardona, No. 11-50562, 2012 U.S. App. LEXIS 27178 (5th Cir.
May 17, 2012).........................................................................................................

33

United States v. Nolen, 523 F.3d 331 (5th Cir. 2008)
Wilson v. Sellers, 138 S. Ct. 1188 (2018)

33, 34, 35,36
14, 25

Constitutional Provisions
Tex. Const, art. 5, § 4(b)

17

Statutes
28 U.S.C. § 1651(a)
28 U.S.C. § 2254
28 U.S.C. § 2254(a)

1
3,4, 10
21

28 U.S.C. § 2254(d)

13

28 U.S.C. § 2254(e)

12, 19

28 U.S.C. §351

27, 29, 32

28 U.S.C. §352

29, 36, 39

28 U.S.C. § 352(a)

30

28 U.S.C. § 352(a)(2)

30

28 U.S.C. § 352(b)

1,30

28 U.S.C. § 352(b)(2)

37

28 U.S.C. § 352(c)

31

Tex. Code Crim. Proc. art. 11.07

6

Tex. Code Crim. Proc. art. 11.07, § 3(c)

9

Tex. Code Crim. Proc. art. 11.07, § 5
Tex. Code Crim. Proc. art. 42.08
Tex. Penal Code § 12.45

18
7, 15
4

Rules
5th Cir. R. 27.1

26, 27, 33

5th Cir. R. 27.2

passim

5th Cir. R. 35IOP
5th Cir. R. 35.1
5th Cir. R. 35.2.10

24, 27, 32
24,32
23

Fed. R. App. P. 35(a)

24, 32

Fed. R. App. P. 35(b)

32

Fed. R. App. P. 35(b)(1)(A)

32

Fed. R. App. P. 40

33

R. Jud. Con. & Disab. Proc. 11

30

R. Jud. Con. & Disab. Proc. 11(a)

30

R. Jud. Con. & Disab. Proc. 11(b)

30

R. Jud. Con. & Disab. Proc. 11(d)

37

R. Jud. Con. & Disab. Proc. 11(e)

37

R. Jud. Con. & Disab. Proc. 11(g)(3)

31

R. Jud. Con. & Disab. Proc. 18(a)

31

R. Jud. Con. & Disab. Proc. 4 cmt

29

R. Jud. Con. & Disab. Proc. 6

29

R. Jud. Con. & Disab. Proc. 8(a)

29

R. Jud. Con. & Disab. Proc. 8(b)

30

R. Jud. Con. & Disab. Proc. pref.

29

Sup. Ct. R. 20.1

3

Sup. Ct. R. 39.8

3

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF MANDAMUS

I, Matthew James Leachman, pro se petitioner in this case, respectfully pray that a writ
of mandamus issue to the Honorable Priscilla R. Owen, Chief Judge of the United States
Court of Appeals for the Fifth Circuit, directing her to process my judicial-conduct complaint
against the Honorable Don R. Willett as required by statute and by rules duly adopted.

OPINIONS BELOW
The same conditions that led to this mandamus petition—Chief Justice Owen’s failure
to comply with 28 U.S.C. § 352(b)’s requirement of a written order—leave no “opinion
below.” The unofficial response, a letter from Chief Deputy Clerk Thomas R. Plunkett,
appears at Appendix A to the petition.

JURISDICTION
The jurisdiction of this Court is invoked under 28 U.S.C. § 1651(a).

1.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Provisions directly related to the mandamus issue (i.e., improper handling ofjudicialconduct complaint):
28 U.S.C. § 1651. Writs
(a) The Supreme Court and all courts established by Act of Congress may issue all writs
necessary or appropriate in aid of their respective jurisdictions and agreeable to the
usages and principles of law.
(b) An alternative writ or rule nisi may be issued by a justice or judge of a court which has
jurisdiction.
28 U.S.C. § 351 — Set forth in Appendix L
28 U.S.C. § 352 — Set forth in Appendix L
R. Jud. Conduct & Disability Proc. 6, 8, and 11— Set forth in Appendix L

Provisions related to underlying events (i.e., the series of events that provide context for,
and led to, the complaint of misconduct), which all appear in Appendix L:
Fed. R. App. P. 27(c); 35(a), (b), and (c); and 40(a)(1)
5TH ClR. R. & IOP 27.1, 27.2, 35.1, 35 10P, 40.2, and 40.4
28 U.S.C. § 2254
Tex. Code Crim. Proc. art. 11.07
Tex. Code Crim. Proc. art. 42.08
Tex. Penal Code § 12.45
Tex. Const, art. V, § 4

2.

STATEMENT OF THE CASE
Introduction
This mandamus petition addresses Chief Judge Owen’s failure to process my judicialconduct complaint in accordance with the law. The complaint arose, however, from
procedural events (not a merits ruling) in my underlying appeal, in which Circuit Judge Don
R. Willett demonstrated bias against me or against pro se prisoners as a class. Therefore, my
statement of the case for mandamus requires discussion of the underlying case. The merits of
my 28 U.S.C. § 2254 claim are not the source of my judicial-conduct complaint, but they
provide context. Context is essential to this petition for two reasons:
First, I cannot justify mandamus relief without explaining why mandamus aids this
Court’s appellate jurisdiction, why my circumstances warrant the Court’s attention, and why
I cannot obtain adequate relief by any other mechanism. See Sup. Ct. R. 20.1.
Second, mandamus petitions from prisoners often result in denials of leave to proceed
in forma pauperis. Presumably, the Court finds those petitions malicious or frivolous. See
SUP. Ct. R. 39.8. Frequent abuse of writ requests by others1 enhances my obligation to show
the merits of my judicial-conduct complaint and to explain my need for mandamus relief.

I have filed petitions in this Court on four occasions. See Leachman v. Texas, 554 U.S. 932
(2008) (petition for writ of certiorari); Leachman v. Stephens, 575 U.S. 1012 (2015) (same);
Leachman v. Stephens, 138 S. Ct. 1550 (2018) (same); Leachman v. Texas, 139 S. Ct. 2727
(2019) (same). I have never been denied leave to proceed in forma pauperis in this Court, and 1
have never been sanctioned or issued a “strike” in this Court or any other.

3.

Events that led to the judicial-conduct complaint
The proceedings that provide context for this petition require some detail:

First predicate event—state convictions and sentences
In 1996, the State of Texas brought indictments against me. This petition implicates
two: numbers 786223 and 786224, in the 248th Judicial District Court of Harris County,
Texas. I was tried and convicted in number 786224, and the trial judge sentenced me to 40
years in state prison (“TDCJ”). The court allowed me to represent myself on appeal.
Counsel negotiated a plea deal in the remaining cases. We agreed that I would plead
guilty to three additional charges and accept 20-year sentences in each, with one sentence
number 786223—cumulated with, or “stacked on,” the 40-year sentence in 786224. My
§ 2254 petition2 described other provisions: we stipulated that the plea would not affect my
appeal in 786224; the State reserved the right to seek a new cumulation order, should I
succeed in overturning 786224; the State agreed to abandon further prosecutions; and I
admitted uncharged offenses under Texas Penal Code § 12.45.3 Because of the multiple
elements, my attorney requested a plea hearing on the record, covered by a court reporter.4
I did not appeal from the bargain; number 786223 became final in 1999.

The petition appears at Appendix K.
3

The full text of the statute appears at Appendix L.

Counsel’s affidavit is incorporated within Doc. No. 51, at Exhibit J, and is further
discussed infra at 12.
4.

Second predicate event—the outcome of 786224
My appeal in 786224 included remand to the trial court for an evidentiary hearing;
revision, on motion for rehearing, of the first post-remand opinion; vacatur by the Texas
Court of Criminal Appeals (“TCCA”) of the revised decision; and—ultimately—affirmance
of the judgment and sentence. See Leachman v. State, No. 01-98-01255-CR, 2006 Tex. App.
LEXIS 7345 (Tex. App.—Houston [IstDist.] Aug. 17, 2006, pet. refd), cert, denied, 554
U.S. 932 (2008). I had argued, inter alia, that the trial court denied my Sixth Amendment
right to represent myself; the state appellate court deemed the error unpreserved because the
judge’s denial did not appear in the record. See id. at *8-9.
Next, the TCCA denied my state habeas application without written order. See Ex parte
Leachman, No. WR-36,445-04 (Tex. Crim. App. Dec. 1, 2010). I turned to the federal courts.
Initially, the federal district court found my claim procedurally barred. See Leachman v.
Stephens, 581 Fed. App’x 390, 392 (5th Cir. 2014) (listing grounds on which certificate of
appealability (“COA”) granted). The district court, however, had misapprehended—and thus,
not addressed—my argument for application of the cause-and-prejudice exception. See id. at
396-97. The Fifth Circuit remanded the case for consideration of that argument.
On remand, the district court held that the state clerk, by failing to provide a correct
appellate record, caused the procedural default and prejudiced my ability to vindicate my
rights in state proceedings. See Leachman v. Stephens,'Ho. 4:1 l-CV-212, 2015 U.S. Dist.
LEXIS 133186, at *7-8, 11-12 (S.D. Tex. Sept. 30, 2015). The judge granted conditional
relief, giving the State 90 days to move for a new trial in number 786224. See id. at * 14.

5.

Third predicate event—TDCJ's response to the new-trial order
On November 4, 2015, the State procured a hearing in the trial court and moved orally
for new trial, citing the federal ruling; the state judge granted the motion in open court. A
week later, I wrote TDCJ regarding the new-trial ruling and the corresponding need to
recalculate my stacked sentence in 786223.1 pointed out that longstanding precedent
governed recalculation of sentences invalidated in habeas proceedings: Gentry v. State, 464
S.W.2d 848, 850 (Tex. Crim. App. 1971) (holding federal due process requires consecutive
sentence to run independently, from date of imposition, when underlying sentence held
invalid). Thus, I wrote, the 786223 sentence should end on April 15, 2016.5
TDCJ never responded, so on December 15, 2015,1 asked a friend to check TDCJ’s
website for my commitment status. On that date, the website reflected deletion of number
786224, but the time calculation for number 786223 revealed that TDCJ viewed November
19, 2015, as the start-date for my 20-year sentence.
After exhausting administrative remedies, I filed the first of two state habeas corpus
petitions. See Tex. Code Crim. Proc. art. 11.07.

Predicate court proceedings—state court
In my first state habeas proceeding, prosecutors filed a TDCJ employee’s affidavit. It
acknowledged receipt of the new-trial order on November 19, 2015, and insisted that the

5

The 2016 date reflects a 20-year sentence running from the date of imposition (November
1, 1999) when the pretrial-incarceration credit set out in the judgment is included.
6.

stacked sentence in number 786223 “began” when the new trial was ordered—a date
identified as November 11, 2015, rather than the correct date of November 4, 2015.6 The
affidavit invoked Ex parte Nickerson, 893 S.W.2d 867 (Tex. Crim. App. 1995), which had
construed the meaning of “ceased to operate” in the state cumulation statute.7 In response, I
pointed out:
■

that Nickerson's construction of “ceased to operate” was repudiated by Ex

parte Vela, 460 S.W.3d 610, 614 (Tex. Crim. App. 2015) (calling Nickerson
“misleading” because statute does not govern sentences invalidated by courts);
■

that Nickerson did not discuss the effect of federal due process on sentences

deemed constitutionally invalid in federal court, as Gentry had;
■

that the TCCA had reaffirmed Gentry after Nickerson, in Ex parte Waggoner,

61 S.W.3d 429 (Tex. Crim. App. 2001); and,
■

that even under TDCJ’s interpretation, the erroneous use of November 11,

2015, as the new-trial-order date extended my sentence by seven days. 8
The trial court, as habeas factfinder, adopted the State’s proposed findings and
conclusions (which endorsed TDCJ’s approach). The TCCA denied my habeas application
6

TDCJ’s website reflected the change. It appears that TDCJ originally calculated the
sentence to “begin” when it received the new-trial order (November 19, 2015) but reconsidered
during habeas proceedings.
The statute—Tex. Code Crim. Proc. art. 42.08—appears at Appendix L.
8

TDCJ never explained how it arrived at November 11, 2015. The proper date (November 4,
2015) appears on every document 1 have seen; the State, too, has used the correct date in its
pleadings elsewhere (e.g., in retrying number 786224).
7.

“without written order on findings of trial court without hearing/’ Ex parte Leachman, No.
WR-36,445-06 (Tex. Crim. App. Feb. 22, 2017) (not available from Lexis).9
I asked the TCCA to reconsider, writing:
[B]oth Nickerson and Vela deal with the nuts and bolts of
construing state procedural statutes. Waggoner and Gentry
address the federal due-process issues that explain why a
sentence once stacked upon a now-invalidated sentence must
become independent. My application specifically invoked due
process, and due-process concerns are especially important
because my plea bargain relied on the understanding that
sentencing laws would be followed. If TDCJ will not follow
them, and the courts do not safeguard due process and enforce
the conditions that made the plea bargain possible, the entire
validity of the conviction at issue is called into question.
Id. (Suggestion for Reconsideration filed Mar. 15, 2017, and denied without comment Mar.
29, 2017) (bold and italic emphases in original).
I filed a second state petition, restating my due process claim and adding that denial of
my first application created three additional federal constitutional violations:
[1] Extending Nickerson's construction, for the first time ever, to situations like
mine (i.ewhere the first sentence in a stack was invalidated in federal habeas
proceedings) was an unexpected judicial alteration of settled precedent that extended my
sentence, in violation of Bouie v. City of Columbia, 378 U.S. 347 (1964);
[2] Endorsement of TDCJ’s approach breached the plea agreement because the
parties bargained from a joint understanding that if the 40-year sentence in 786224 were
9
I described the state proceedings and included exhibits from them in the statement of facts
for my federal petition, which appears at Exhibit K.
8.

held unconstitutional, the cumulation order would become invalid (hence the State’s
reservation of the right to seek a new cumulation order);10 and,
[3] Alternatively, the plea was involuntary because it relied on counsel’s explicit
assurances-

indorsed by the prosecutor in the bargaining process and by the trial court

during the plea hearing—about the effect of invalidation in number 786224 upon the
stacked sentence in number 786223.
I also filed motions [1] to have the court reporter transcribe the record from my 1999
plea hearing, which had not been done previously because I did not appeal from the plea
bargain, and [2] to recuse the trial-court judge.11 The judge took no action, and the
application went to the TCCA by operation of law. See Tex. Code Crim. Proc. art. 11.07,
§ 3(c).12 The TCCA denied the application without written order, hearing, or comment,
notwithstanding my renewal in that court of my request for a plea-hearing transcript. See Ex
parte Leachman, WR-36.445-11 (Tex. Crim. App. Jan. 23, 2019) (not available from Lexis).

10
The State filed pretrial motions in the new-trial proceedings, seeking to cumulate any new
sentence with the existing 786223 sentence—consistent with its 1999 reservation of rights. But,
at the same time, the State was defending TDCJ’s approach to the old cumulation order, in
violation of the plea agreement. My second state and my federal petitions noted this inequity.
11
The basis for recusal: in the reprosecution of number 786224,1 learned that the judge met
with prosecutors and solicited ex parte comments and argument on one of my pending motions. I
moved for recusal, and the judge transferred the reprosecution to a visiting judge’s docket
without formally recusing—but that still left her as the initial factfinder in habeas cases.
12

A copy of the statute appears at Appendix L.
9.

Predicate court proceedings—federal district court
I filed a § 2254 petition, asserting that my confinement in number 786223 violates the
Constitution because: [1 ] my sentence, calculated as the Due Process Clause requires, has
expired; [2] the TCCA extended my sentence by ex post facto judicial alteration of settled
precedent, in violation of Borne; [3] the TCCA’s endorsement of TDCJ’s actions breached
the plea agreement; and, alternatively, [4] my conviction resulted from an involuntary plea.

The State’s request for summary judgment
The State—via TDCJ Director Davis— attacked the merits of my claim by motion for
summary judgment (“MSJ”). The magistrate summarized the State’s position:
Respondent
claims that
barred from
S. Ct. 1060,
the record.

argues that Petitioner's claims are state law
are not cognizable in a § 2254 proceeding, are
consideration by Teague v. Lane, 489 U.S. 288, 109
103 L. Ed. 2d 334 (1989), and are not supported by

Leachman v. Davis, No. H-18-0544, 2020 U.S. Dist. LEXIS 51170, at *1 (S.D. Tex. Feb. 12,
2020),13 adopted in part and modified in part by Leachman v. Davis, No. H-18-0544, 2020
U.S. Dist. LEXIS 50217 (S.D. Tex. Mar. 23, 2020).14 Specifically:
■

The State asserted a right to deferential review of the state-court judgment

with respect to my first and second grounds for relief. See Doc. No. 42 at 1 (invoking

13
A copy of the Magistrate’s Report and Recommendation (preceded by my objections)
appears at Appendix I.
14

A copy of the judgment appears at Appendix H.
10.

AEDPA’s “relitigation bar”); id. at 5-7 (arguing for deferential standard of review); id. at
10 (“Leachman’s first two claims .. . must be denied because they fail to satisfy §
2254(d)(l)[.]”). Significantly, however, the State wanted deference to a judgment based
on state—not federal—law:
Leachman’s “due process” and “ex post facto” claims boil down
to a complaint that TDCJ is misreading the CCA’s
precedent .... But since Leachman’s allegations are
rooted in state law, his claims do not constitute
cognizable federal habeas corpus claims.. ..
In his brief, Leachman argues that TDCJ misapplied Ex
parte Nickerson .... It is well-established that federal habeas
corpus relief will not issue to correct errors of state
constitutional, statutory, or procedural law, unless a federal
issue is also present.
Doc. No. 42 at 7-8 (emphases added).
■

The State argued that those claims were also Teagwe-barred. See id.

■

The State asserted that facts pled in support of my third claim suffered from

“lack of evidentiary support” and were “conclusory and meritless,” Doc. No. 42 at 11.
■

The State reasserted the AEDPA’s relitigation bar against my fourth claim,

relying upon the presumption of a voluntary plea. See Doc. No. 42 at 14-16.

Mv request for summary judgment
In response, I combined my objections to the State’s MSJ with a cross-motion for
summary judgment (Doc. No. 51, filed Dec. 3, 2019).15

15

A copy of the objections and cross-motion appears at Appendix J.
11.

t

f

I

1

:

J

First, I separated disputed from undisputed facts, see Doc. No. 51 at 4-7, and I offered
summary-judgment evidence, including counsel’s affidavit regarding plea terms and his
request for a court .reporter. See id. at 7 (offering appendix as evidence); id. at Appendix.
Second, I objected again to the State’s running failure to correct the erroneous newtrial-order date —a date endorsed by the State only in the habeas proceedings16— and
explained why establishing the correct date matters. See Doc. No. 51 at 10-13 (requesting
ruling on objection or finding of correct date under 28 U.S.C. § 2254(e)).
Third, I undertook to rebut the presumption that a state court ruled on the merits of my
federal constitutional claims. See Doc. No. 51 at 15-49.
Fourth, I disputed the alleged Teague bar to my first and second claims because:
■

Teague does not apply to claims admitting a sentence’s validity but

challenging the fairness of its execution; rather, it applies to claims that a conviction
cannot be valid without some procedural refinement. See Doc. No. 51 at 50-51.
■

The rules I cite—i.e., due process in calculation of cumulative state sentences

when one is constitutionally invalid and prohibition on judicial alterations of settled law
ex post facto—are not “new rules.” The former was established in the Fifth and Tenth
Circuits even before Texas adopted that approach in Gentry}1 The latter was established
in Bouie decades before my claims arose. See Doc. No. 51 at 51-53.

16

See supra at 7 n.8.

17
See Gentry, 464 S.W.2d at 850 (citing Goodwin v. Page, 418 F.2d 867 (10th Cir. 1969),
and Meadows v. Blackwell, 433 F.2d 1298 (5th Cir. 1970)).
12.

p

I

4-

P

4

t

i

\

Fifth, I asserted that critical facts about the plea bargain and the voluntariness of my
plea were disputed and that the undisputed facts—weighed properly, with inferences in my
favor—could not support summary judgment for the State. See Doc. No. 51 at 54-66.
Sixth, I argued that the State’s “collateral consequences” citations were inapposite
because the collateral-consequences standard applies to cases in which the defendant was not
advised of a fact. My case involved affirmative misinformation from counsel, prosecutors,
and the trial court—a separate line of caselaw. See Doc. No. 51 at 66-70.
Seventh, I concluded that, in light of all the above, the State could not show an
entitlement to summary judgment as a matter of law. See Doc. No. 51 at 70-73.
Finally, I reanalyzed each issue from a movant's perspective to support my cross­
motion. I argued that on the district court record—even without the plea-hearing transcript—
I was entitled to summary judgment as a matter of law. See Doc. No. 51 at 75-96.

The question of deference
Whether state courts ruled on the merits of my federal claims was a primary question.
It controlled [1] whether review of the state-court judgment would be deferential—see
Harrington v. Richter, 562 U.S. 86, 97-98 (2011) (discussing 28 U.S.C. § 2254(d))— and [2]
whether the court could accept my new summary-judgment evidence. See Cullen v.
Pinholster, 563 U.S. 170, 182 (2011) (holding AEDPA deference limits federal courts to
record that was before state courts).'

13.

I argued that the state-court rulings did not address the merits of my federal claims. My
argument comprised 35 of the 97 pages in my summary-judgment motion—or, as counted by
Microsoft Word, 9953 from 24,718 words. I examined more than 30 TCCA precedents, plus
Fifth Circuit precedents on Texas law, and closely scrutinized the specifics of my case—all
to satisfy Richter s rebuttal standard, “reason to think some other explanation for the state
court's decision is more likely.” Richter, 562 U.S. at 99-100.1 identified multiple “other
explanations”—each more likely than a merits ruling:
On one hand, my case requires a presumption that state courts relied on Nickerson.
■

Neither petition garnered a written order from the TCCA, but in the first, the

trial court issued findings and conclusions. Federal courts “look through” unexplained
decisions from a higher court to the “last related state-court decision that does provide a
relevant rationale.” Wilson v. Sellers, 138 S. Ct. 1188, 1192 (2018). The presumption can
be rebutted, see id., but here, the State—as shown in the quotations supra at pp. 10 and
11—embraced the notion of a state-law basis.
■

For my first federal claim—i.e.. due process requires a sentence stacked upon

a constitutionally invalid sentence to run independently—the TCCA’s explicit reference
to trial-court findings reinforces Wilson's presumption. The unexplained denial of the
same claim in my second petition falls squarely within the presumption.
■

For my remaining federal claims, raised only in the second state habeas

petition, each claim “relates to” the decision from the first. Under Wilson, the trial court’s
holdings remain “the last related state-court decision [to] provide a relevant rationale.” Id.
14.

See Doc. No. 51 at 36-37 (analyzing Wilson). Furthermore, a Nickerson-based decision
means that my state claims were rejected on state-law procedural grounds:
■

Johnson v. Williams, 568 U.S. 289, 298-301 (2013), requires a rebuttable

Richter presumption for written opinions that do not mention federal claims. But the
Court found two reasons that rebuttal failed in Williams. First, while the state-court
opinion under consideration cited no federal precedents, it cited a state supreme court
decision that had analyzed federal constitutional issues. See id. at 304-05. Second,
Williams never distinguished her state from her federal claims or argued in state courts
that her federal claims had not been addressed. See id. at 306.
■

Here, however, Nickerson limited itself to a procedural statute without

inherent substantive concerns. And, it cited no cases involving federal due process. See
893 S.W.2d at 548. Moreover, unlike Williams, I objected in state court that resolution
under Nickerson left my federal claim unaddressed. See quoted text, supra p. 8.
■

Thus, based on Williams's examples, I rebutted any presumption of a federal

merits judgment. The state courts relied explicitly, and entirely, on state-law procedural
grounds. Thus, the proper course in § 2254 proceedings was to analyze whether those
state grounds were adequate and independent—and, if not, conduct a de novo review.
See Doc. No. 51 at 35-36 & n.25, 49, 81-84 (analyzing this point).
On the other hand, I noted one reason to question the look-through presumption: it's
quite hard to argue that the TCCA intended to endorse trial-court reliance on Nickerson's
“ceased to operate” construction when the TCCA so recently had disavowed that
15.

construction in Vela, 460 S.W.3d at 614. See Doc. No 51 at 37-38 (addressing this point).
But long-established precedent also suggests that the TCCA did not issue a merits judgment
on grounds other than the trial-court findings:
■

Failure to correct plain error in TDCJ’s affidavit that I explicitly raised and

that extends my incarceration by a week —i.e., use of November 11 instead of November
4, 2015—makes it hard to argue that the TCCA reviewed the merits of my first claim.
Merits review involves independent review of trial-court findings against the record. E.g,
Ex parte Reed, 271 S.W.3d 698, 727 (Tex. Crim. App. 2008). Here, all official records,
including the trial court’s own docket report, reflect the correct date; only TDCJ’s
affidavit varies (apparently pulling a date from a magic hat, as no other source exists).
■

Likewise, the TCCA’s silence on my motion to obtain the reporter’s record

from my plea hearing makes it hard to argue that the TCCA grappled with the merits of
my third and fourth claims. No procedural reason justified ignoring the motion; I timely
filed it in the trial court, and I renewed it in the TCCA based on trial court inaction. The
TCCA has emphasized that breach-of-bargain and involuntary-plea claims require
examination of the entire record. E.g., Thomas v. State, 516 S.W.3d 498, 502 (Tex.
Crim. App. 2017) (breach of bargain); Ex parte Barnaby, 475 S.W.3d 316, 323 (Tex.
Crim. App. 2015) (per curiam) (involuntary plea).
See Doc. No. 51 at 37-38, 45-46 (identifying these precedents). I argued that, assuming the
look-through presumption did not apply, the question was whetherfeatures of Texas
procedural or decisional law reconciled the TCCA’s actions. See Richter, 562 U.S. at 100
16.

(noting explanations from state courts and legislatures can illuminate rebuttal questions); see
also Kernan v. Hinojosa, 136 S. Ct. 1603 (2016) (per curiam) (holding that state’s venue
rules rebutted look-through presumption). And Texas precedent provides an answer. In Ex
parte Dawson, 509 S.W.3d 294 (Tex. Crim. App. 2016) (mem. op.), via dueling
concurrences,18 the TCCA explained its internal standards:
■

Historically, the TCCA has rendered unexplained denials on procedural

details. E.g., Hartfieldv. Thaler, 403 S.W.3d 234, 239-40 (Tex. Crim. App. 2013)
(answering Fifth Circuit’s certified question); see Doc. No. 51 at 18-22 (analyzing
Hartfleld). Dawson explains why: if the initial TCCA judge determines that habeas is not
an appropriate vehicle for relief, the claim is denied, with no opinion, in a non-conference
disposition. See Dawson, 509 S.W.3d at 295.
■

The “vast majority” of such dispositions occur when the TCCA’s staff

attorney and the initial judge agree that the pleading: is insufficiently “specific”;
“assert[s] claims that may not be brought on habeas corpus”; or asserts claims that “are
statutorily or procedurally barred.” Id.; see Doc. No. 51 at 38-40 (noting that these are
procedural grounds).
■

Furthermore, the narrow class of cases permitting non-conference denial on

the merits must involve issues that are beyond all debate because the governing law is so
18
Judge Keasler’s principal concurrence described the court’s procedures; five others joined
his explanation, making it conclusive. Cf Tex. Const, art. 5, § 4(b) (“[T]he concurrence of five
Judges shall be necessary for a decision.”). Judge Alcala’s opposing concurrence did not debate
Judge Keasler’s description of the court’s procedures—only their constitutional advisability.
17.

well settled. See Dawson. 509 S.W.3d at 295-96 (describing circumstances not allowing
non-conference disposition). I argued that no reasonable jurist could find that my
circumstances fall within those confines. See Doc. No. 51 at 45-46.
Consistent with Dawson, I identified procedural grounds for denial of my claims:
In the TCCA’s eyes, the 40-year conviction still may exist because the trial
court had no jurisdiction to grant a new trial. See Tex. CODE Crim. Proc. art. 11.07, § 5
(“After conviction the procedure outlined in this Act shall be exclusive and any other
proceeding shall be void and of no force and effect in discharging the prisoner.”). Thus,
the trial-court findings—by identifying the procedural status of the case—would be
sufficient to deem my habeas petition premature, explaining why the TCCA did not adopt
the trial-court conclusions. See Doc. No. 51 at 39 (discussing this possibility).
■

At the same time it was considering my case, the TCCA held that habeas

corpus would no longer be a proper vehicle for addressing improper cumulation orders.19
See id. (discussing this possibility).
■

The TCCA may not have applied the liberal construction that attends federal

habeas applications, demanding more artful pleading than I provided. See id. at 39-40
(discussing possibility through lens of other TCCA cases).
■

For my second application, only one TCCA judge has suggested that such

subsequent petitions are proper; others have found the proposition unsound. See id. at 47-

19

Ex parte Carter, 521 S.W.3d 344 (Tex. Crim. App. 2017).
18.

48 (quoting Ex parte Valdez, 489 S.W.3d 462, 469 (Tex. Crim. App. 2016) (Keller, P.J.,
concurring)).20
In sum, 1 argued that either the look-through presumption applied, and the case was
resolved exclusively on state procedural grounds, or the unique circumstances of my
procedurally and factually complicated case led to a non-merits judgment, a la Dawson. See
Doc. No. 51 at 33-49.1 went well beyond Richters requirement of a “more likely” path than
a merits disposition. In my case, no reasonable path leads to judgment on the federal merits.

Results in federal district court
A magistrate judge acceded to the State’s arguments, but concluded that no Teague
analysis was required.21 Both parties filed objections.
I objected that the magistrate’s analysis consented to the State’s misframing of issues
without even acknowledging my well-pleaded counterarguments. See generally Doc. No. 60.
For example, the analysis did not mention my careful delineation of facts in dispute or my
explicit request for § 2254(e) factfinding on the correct date for the new-trial order. See id. at
6-8. Nor did it distinguish between pleas in which a defendant lacks information (which are
reviewed under the collateral-consequences test) and those in which a defendant receives

20
Significantly, Judge Yeary—the very judge who denied my second state habeas petition in
a non-conference disposition—joined Presiding Judge Keller’s concurrence.
21
A copy of the report and recommendation (Doc. No. 54), preceded by my objections to it
(Doc. No. 60), can be found at Appendix I.
19.

misinformation (which examine the commitments made to the defendant by the wrong
information). See id. at 25-26.
More significantly, the recommendation disregarded my effort to rebut Richter's merits
presumption, announcing the presumption as a fait accompli, without even fleeting reference
to my detailed rebuttal. I objected to the lack of analysis and to the facially absurd result: the
magistrate agreed (with both parties!) that the state court resolved my first claim on state-law
grounds, then acknowledged that my federal claim involved due process concerns in that law,
but nevertheless found that the relitigation bar applied—a per se contradiction, because statelaw resolution necessarily removed the case from AEDPA deference. See id. at 8-12, 22-24.
And, bizarrely, the magistrate “resolved” my second claim—i.e., that if the TCCA
applied Nickerson to my procedural posture, it necessarily (but sub silentio) overruled Gentry,
altering precedent via ex post facto judicial construction—without once referring to Bouie,
the source of my federal claim. See id. at 24. The discussion of my second claim shows that,
despite my explicit citation to Bouie, the magistrate misapprehended the claim’s true nature.
See id. (objecting on this basis).
The district judge sustained the State’s Teague objection with detailed analysis but
overruled my objections without documenting them, much less analyzing them.22 He denied
a COA on my claims.

22

A copy of the district judge’s opinion appears at Appendix H.
20.

Predicate court proceedings—Fifth Circuit
I appealed the district court’s judgment.

Request for COA
My COA brief, which appears as an attachment to Appendix F, noted a problem
of recursion: in the Fifth Circuit, the “debatability” standard for a COA is tied to whether
deference applies. E.gShore v. Davis, 845 F.3d 627, 631 (5th Cir. 2017) (“The court
evaluates the debatability of Shore's constitutional claims through the lens of AEDPA's
highly deferential standard[.]”). Thus, deciding which lens to use when evaluating
debatability ofwhether AEDPA deference applied required the Fifth Circuit first to resolve
the merits of that issue, contrary to the threshold nature of COA determinations. See COA
Brief at 6-7 (noting paradox and proposing solution). Therefore, I began by showing that my
four issues had valid constitutional bases under 28 U.S.C. § 2254(a). See COA Brief at 8-11.
Next, on the issue of deference, I noted that the district court’s failure even to mention
my meticulous rebuttal efforts left nothing for the Circuit to review, derogating from my
right to attempt rebuttal of the merits presumption. See id. at 12-13.1 also noted two
complications: first, precedent offered no framework for analyzing a COA request that
asserts deference errors—see id. at 14-17 (proposing workable framework)—and second, for
lack of a district-court analysis whose debatability could be argued, my only option was to
jam an overview of the argument the district court should have analyzed into the length
limits for a COA brief. See id. at 18-24.

21.

Finally, I argued that the district court’s Teague finding was at least debatable because
the requested relief did not create a new or a procedural rule, see id. at 25-28, and that even if
AEDPA deference applied, this Court’s precedents supported each of my four asserted
grounds under the “clearly established Federal law” standard, see id. at 29-38.
Circuit Judge Don R. Willett reviewed my request and denied COA in one sentence.23

Request for reconsideration
Under Fifth Circuit rules, a single judge’s ruling is “subject to review by a panel upon a
motion for reconsideration[.]” 5th CiR. R. 27.2; see McIntosh v. Partridge, 540 F.3d 315,
327 n.17 (5th Cir. 2008) (noting that party is “entitled” to panel reconsideration). I filed one
(the “27.2 Motion”),24 noting:
Because [Judge Willett’s] Order consisted only of a single
sentence . . . limiting this motion to the specific error(s) of law
or of logic that led to the denial is an impossible task.
27.2 Motion at 2. Thus, 1 only could guess at reasons for denial of COA, see id. at 2-6, and
summarize my arguments for granting COA, see id. at 6-9.1 argued:
[A]s recently as two years ago, this Court stood by the principle
that petitioners can present “indications” or state-law
procedural principles to rebut the presumption of merits
adjudication. The district court denied me that opportunity
For the Court to deny COA in the face of my extensive showing
is effectively to disregard the promise made by the Thompson
[a Davis, 916 F.3d 444 (5th Cir. 2019)] court.

23

A copy of Circuit Judge Willett’s order appears at Appendix G.

24

The motion appears at Appendix F (with COA Brief appended).
22.

Id. at 9 (emphases in original).
A panel denied my motion for reconsideration in a per curiam order.25 The panel order
included judicial reasoning; it characterized my argument for rebuttal as one relying upon
three issues: procedural complexity, pendency of motions in the second state petition, and
inferences from Dawson. Panel op. at 2. The panel said the “first two grounds are too
speculative to overcome the presumption” and that I was “overreading” Dawson. Id.
The three grounds characterized by the panel come from my COA Brief26 at 21-23. But,
the panel did not acknowledge that the absence of district-court analysis had constrained me
to a “brief overview” of my more detailed 35-page rebuttal below. Id. at 18.
Furthermore, the panel opinion mentioned only my overview of the second state
proceeding. It ignored my overview of the first, which [1] yielded the “last related state-court
decision” and [2] was the source of contradictory conclusions (that deference applied and
that the state courts relied on state procedural law). Significantly, it also ignored my
additional argument that COA was warranted even ifdeference applied, based on clearly
established federal law—including Bouie. See COA Brief at 29-38.
Finally, the panel opinion—while limiting itself to a mere sketch of arguments on the
second state proceeding—still mischaracterized them. In particular, the panel described my
“overreading” of Dawson thusly: “[Njothing in that case suggests that a single judge is

25
I appended the panel’s order to my motions for rehearing, which appear at Appendix E.
See 5th Cir. R. 35.2.10 (requiring copy of order to be bound with motion for rehearing en banc).
26

Appended to the 27.2 Motion at Appendix F.
23.

unauthorized to dispose of a petition on the merits.” Panel op. at 2. But, as described above,
my full analysis specifically took notice that a single judge can dispose of a case on the
merits in narrowly defined circumstances. See discussion supra pp. 17-18. The panel opinion
did not acknowledge that rebuttal of the merits presumption looks to what is “more likely
not what is beyond doubt.
Two weeks after the panel opinion, as I was preparing motions for rehearing, the Fifth
Circuit Clerk issued the mandate. I wrote a letter to the Clerk, explaining the situation and
seeking the mandate’s recall.
Motions for panel and en banc rehearing
Having obtained a panel opinion, and one that gave reasons for denial—but failed to
address all of my COA issues and arguments, and demanded a higher standard of proof than
Richter requires—I filed motions for panel rehearing and rehearing en banc (“Mot.Panel.Reh”
and “Mot.En.Banc”).27
Standards in the national and local rules suggested that three issues had sufficient
gravity to call for the Circuit’s full attention. See Fed. R. App. P. 35(a); 5th Cir. R. 35.1;
5th Cir. R. 35 IOP. First, I argued that the panel decision disregarded both Richter and
Circuit precedent by demanding a rebuttal standard more akin to “beyond reasonable doubt”
than to likelihood based on reasonable assessment of state precedents and rules. See
Mot.En.Banc at 7. Second, I argued that instead of looking for a “substantial showing” that
27

Again, both motions appear at Appendix E.
24.

the district court’s decision (devoid of analysis) was debatable, the panel added its more
restrictive gloss upon Richter and jumped to first-instance analysis of the underlying, neverbriefed-in-full issues—repeating the mistake condemned by this Court in Tennard v. Dretke,
542 U.S. 274, 283 (2004). See Mot.En.Banc at 7. Third, I argued that the case had
exceptional importance, given the lack of precedent for how to review a COA application
challenging AEDPA deference when a district has ignored a well-pleaded effort to rebut the
merits presumption. See id. at 7.
Issues the panel simply overlooked, however, seemed insufficient to justify rehearing
en banc; accordingly, I argued them in a motion for panel rehearing. First, I argued that the
panel failed to apply Wilson's look-through presumption to my state proceedings. See
Mot.Panel.Reh at 9. Second, I argued that, by finding 1 had “not cited controlling Supreme
Court authority” for any of my claims, the panel obviously had overlooked my citation to
precedents from this Court—both directly and from law-of-the-Circuit rulings on what this
Court has “clearly established.” See id.
Because the mandate had issued, and because the Circuit’s local rules do not discuss
motions for rehearing after a panel opinion issues under local rule 27.2,1 included a
statement on the propriety of my rehearing requests. See id. at 7-8.

The Clerk’s response
The Clerk’s response was slow; my experience with legal mail to the Fifth Circuit from
the Flarris County Jail makes me certain that the Clerk received both my letter about the

25.

mandate and my rehearing motions by June 29, 2021. The response, when it came, was a
letter (dated July 14, 2021) from Deputy Clerk Donna L. Mendez:
As an initial matter, the review of a single judge
administrative* order, is accomplished in the filing of a
motion* for* reconsideration. A petition for panel rehearing
would not* be* allowed.
Letter at 1 (emphasis added).28
In response, I filed a motion for reconsideration by a judge of the clerk’s decision to
take no action (the “27.1 Motion”). See 5th ClR. R. 27.1. My motion reasserted, for a
judge’s benefit, precedent that contradicted Deputy Mendez’s explanation. See 27.1 Motion
at 5-6 (citing Ochoa Canales v. Quarterman, 507 F.3d 884 (5th Cir. 2007)).
Like my rehearing motions, my Rule 27.1 motion was not presented to the Circuit.
Instead, I received another letter (dated July 30, 2021), stating that the Clerk again was
“taking no action.” Letter at 1.29 This letter, signed by Deputy Clerk Monica R. Washington,
had a different rationale; it did not suggest that rehearing was forbidden after Rule 27.2 panel
reconsideration:
The case is closed any petition for rehearing en banc was due
at the time of the filing of the motion for reconsideration, we
are taking no action on this motion.
Letter at 1 (all punctuation verbatim).

28

A copy of the letter is attached as an exhibit to my motion for reconsideration of the clerk’s
action, which appears at Appendix D. In the quoted text, asterisks appear by the words that I’ve
guessed from context; each was cut off, partially or completely, in the original.
29

A copy of the letter appears at Exhibit C.
26.

The judicial-conduct complaint
Suspecting judicial obstruction of my motions, I filed a judicial-conduct complaint.30
See 28 U.S.C. § 351. My complaint asserted that Circuit Judge Willett exhibited bias toward
my pro se petition because [1] nothing in the national or local rules of appellate procedure
forbade motions for rehearing after rule 27.2 panel action; [2] moreover, the rules’ literal text
implied such motions were proper; [3] even more tellingly, unambiguous Fifth Circuit
precedent had considered such motions from an inmate with a lawyer; but, [4] my motions
were blocked. Statement of Facts at 2-4.1 acknowledged a lack of affirmative proofthat
Circuit Judge Willett had directed the Clerk’s action, but I alleged his involvement by
inference from known facts. First, the text of 5 TH ClR. R. 27.1 does not permit the Clerk to
act alone on either motions for rehearing or requests for judicial review of clerical action.
Second, the two-week-plus delay before Deputy Mendez’s no-action notice suggests that she
sought judicial guidance (and possibly even filed the motion) before writing the letter. Third,
under 5th ClR. R. 35 IOP, Judge Willett—for the panel—had control of the case on
rehearing requests. See Statement of Facts at 4-5. Although I suspect that the text I quoted
from Deputy Mendez’s letter, see supra p. 26, was cut-and-pasted from Circuit Judge
Willett’s instructions to her—incidentally causing the problem of lost words at the margin—I
judged this suspicion too tenuous to declare based on information and belief, and I did not
assert it in my complaint.

30

A copy of the complaint (cover form and statement of facts) appears at Appendix B.
27.

The only response was a letter (dated August 23, 2021) from Chief Deputy Clerk
Thomas B. Plunkett, stating that Chief Judge Owen had directed him to review my complaint.
He asserted that procedures were followed, writing in part:
On June 9, 2021, the court denied your motion for
reconsideration from the April 19, 2021 denial of a certificate of
appealability. Appropriately, the mandate then issued on June
16, 2021 closing this matter. As you were informed, no action
will be taken on any later submissions as they are untimely.
Letter at 1 (all punctuation verbatim) (emphasis added).31 He did not deny that Circuit
Judge Willett had advised the Clerk to “take no action” on my motions.

ARGUMENT
It is a serious—perhaps even a grave—matter to seek mandamus:
[Mandamus] is a drastic and extraordinary remedy reserved
for really extraordinary causes. The traditional use of the writ
in aid of appellate jurisdiction both at common law and in the
federal courts has been to confine the court against which
mandamus is sought to a lawful exercise of its prescribed
jurisdiction. Although courts have not confined themselves to
an arbitrary and technical definition of “jurisdiction,” only
exceptional circumstances amounting to a judicial usurpation
of power, or a clear abuse of discretion, will justify the
invocation of this extraordinary remedy.
Cheney v. United States Dist. Court, 542 U.S. 367, 380 (2004) (citations, internal quotations,
and internal brackets omitted). One seeking mandamus relief must satisfy a three-pronged

31

The letter appears at Appendix A.
28.

test: [1] the right to relief must be indisputable; [2] mandamus must be the only adequate
means for relief; and [3] the issuing court must be convinced that use of its discretion to issue
the writ is appropriate under the circumstances. Id. at 380-81.
Indisputable right to relief
Any person has a statutory right to complain about a judge under 28 U.S.C. §351;
chief judges have corresponding duties under 28 U.S.C. § 352. The Judicial Conference of
the United States has exercised its authority to promulgate rules governing complaints. See R.
JUD. Con. & Disab. Proc. pref. Here, Chief Judge Owen failed to follow the mandatory
provisions imposed by statute and rule.
My statement of facts identified a specific judge, alleged specific action, and asserted
that improper bias against pro se filings motivated the action. The complaint’s facial validity
was unmistakable. See R. JUD. Con. & Disab. Proc. 4 cmt. (explaining that allegations of
action motivated by bias are proper subject of complaint procedure); R. Jud. CON. & Disab.
Proc. 6 (describing essential contents of complaint). Thus, the Clerk had to “open a file,
assign a docket number according to a uniform numbering scheme promulgated by the
Committee on Judicial Conduct and Disability, and acknowledge the complaint’s receipt.” R.
Jud. Con. & Disab. Proc. 8(a).
Here, the Clerk did not acknowledge receipt, open a file, or assign a docket number—
the letter from Chief Deputy Clerk Plunkett showed only the docket number for my appeal.
Conversely, Chief Plunkett’s letter did reflect the forwarding of my complaint to Chief Judge

29.

Owen. See R. JUD. Con. & DlSAB. Proc. 8(b) (requiring transmission of complaint “to the
chief judge”).
At that point, Chief Judge Owen had authority to conduct an informal, limited inquiry.
See 28 U.S.C. § 352(a); R. Jud. Con. & Disab. Proc. 11. And she had authority to
designate Chief Plunkett to investigate underlying facts, “transcripts [,] and other relevant
documents.” 28 U.S.C. § 352(a)(2); R. Jud. Con. & Disab. Proc. 11(b). But she did not
have authority to resolve “any reasonably disputed issue.” 28 U.S.C. § 352(a)(2); R. Jud.
Con. & Disab. Proc. 11(b). More importantly, she did not have authority to close the book
on proceedings without a written order. See 28 U.S.C. § 352(b). Only four valid outcomes
exist for a chief judge’s inquiry: dismissal, conclusion that voluntary corrective action has
been taken, conclusion that intervening events have mooted the complaint, or referral to a
special committee. See R. Jud. Con. & Disab. Proc. 11(a).
Here, however, when Chief Judge Owen assigned Chief Plunkett to investigate, Chief
Plunkett concluded the complaint procedure informally, with his own letter, blithely assuring
me that everything was A-OK.
I rather suspect that a complaint from a lawyer, or from anyone but a pro se prisoner,
would have been handled strictly according to statute. The under-the-table handling of this
matter, from the moment the Clerk did not acknowledge receipt and assign a file number,
illustrates the problem of disparate treatment—the same problem that gave rise to the
complaint. The abrogation of my statutory right to have my judicial-conduct complaint
considered is indisputable.
30.

No other remedy
Ordinarily, a complainant “aggrieved by a final order of the chiefjudge*’ can seek
review by the judicial council. 28 U.S.C. § 352(c); accord, R. Jud. CON. & Disab. Proc.
11(g)(3). In fact, that is the only form of review. Denial of review by the judicial council
“shall be final and conclusive and shall not be judicially reviewable on appeal or otherwise.”
28 U.S.C. § 352(c).
To petition for review of a chiefjudge’s order, however, one must have an order. E.g.,
R. Jud. Con. & Disab. Proc. 18(a) (“After the chiefjudge issues an order ... the
complainant.. . may petition the judicial council of the circuit to review the order.”)
(emphasis added). Neither the judicial-complaint statutes nor the rules effecting them include
a remedy when a chiefjudge fails to render a written order.
Hence, only mandamus can provide a remedy for a failure to follow the statute. And
because Congress chose the Circuit courts as a venue for filing a complaint, only this Court
has authority to issue the writ.

The issue warrants the Court’s attention
Earlier, I noted that in my quarter century of litigating, I have never been denied
permission to proceed in forma pauperis by this Court, nor been sanctioned or issued a
“strike” by any court. Now I add: this is not the first time I’ve felt that my status as a pro se
prisoner makes for an uphill slog against judicial disdain. In that entire quarter century,

31.

however, and all of its various proceedings, I have never taken the extraordinary step of
filing a complaint under 28 U.S.C. § 351.
This time is different because the effects are so pernicious.

Direct harm—uncorrected discrimination
A baseless judicial-conduct complaint, or even a reasonably doubtful one, might not
warrant the exercise of this Court’s mandamus jurisdiction—no matter how far a chief judge
below departed from statutory obligations. I emphasize, however, that my complaint has a
firm foundation. No good explanation exists for what occurred in the procedural handling of
my appellate motions.
Chief Deputy Plunkett’s letter offers mere justification by conclusory fiat. It is
wrong—demonstrably, and from multiple sources, beginning with inference from the
appellate rules. A motion for rehearing en banc requires a predicate panel decision (see Fed.
R. App. P. 35(b)(1)(A) (using phrase “the panel decision conflicts”))—a predicate decision
with analysis, not merely a single sentence (see Fed. R. App. P. 35(a), (b) (discussing
decisions that conflict with precedent)). Fifth Circuit rules present stark warnings against
cavalier requests for rehearing en banc. See 5th Cir. R. 35.1 & R. 35 IOP. So, any notion
that my petition for rehearing was due at the same time I sought reconsideration of Circuit
Judge Willett’s one-sentence order under 5th Cir. R. 27.2 is absurd—it would require me to
spurn the rules, not obey them.

32.

Furthermore, the Fifth Circuit distinguishes, not equates, motions for reconsideration
ofa single-judge order under rule 27.2 and motions for panel rehearing under Fed. R. App.
P. 40. E.g., United States v. Cardona, No. 11-50562, 2012 U.S. App. LEXIS 27178, at *1
(5th Cir. May 17, 2012) (considering petition for rehearing from single-judge denial as
motion for reconsideration). More significantly, the situations presented by my case have
occurred in the past. In Ochoa Canales, 507 F.3d at 885-86, a prisoner represented by an
attorney filed his petition for rehearing en banc after denial by a single judge of his COA
request, and afterfurther denial by a panel upon rule 27.2 reconsideration. The court not
only accepted his petition for rehearing, but also circulated it to the entire court and then
issued a new panel opinion. See id. And in United States v. Nolen, 523 F.3d 331 (5th Cir.
2008), when a clerk “took no action” on a government motion deemed untimely, the AUSA
received judicial reconsideration under local rule 27.1 on request. See id. at 332.
Statements here by Deputy Washington and Chief Plunkett (motions for rehearing due
at the same time as motions for rule 27.2 reconsideration), and by Deputy Mendez (no panel
rehearing “allowed” after rule 27.2 reconsideration), stand in stark contrast to Ochoa
Canales—but the only difference in our procedural postures is that his claims were filed by
a lawyer. And in Nolen, the clerk’s decision to take no action on the government’s “untimely”
motion received judicial review when the AUSA sought rule 27.1 reconsideration—but in
my case, seeking reconsideration of Deputy Clerk Mendez’s decision to “take no action,” I
received only letters from other deputy clerks (Deputy Washington and Chief Plunkett),
dismissing my concerns with the wave of a hand.
33.

Ochoa Canales gives the lie to Chief Plunkett’s claim that my motions for rehearing
were “untimely.” And Nolen gives the lie to his claim that the Clerk properly took no action
when I sought judicial review of the clerical decision that the motions were untimely. Courts
have power to make local rules, barring conflict with the national rules, and their judges have
power to construe those rules—but in this case, the Fifth Circuit has done so, in Ochoa
Canales and Nolen. No clerical employee—not the Chief Deputy, not the even the Clerk
has authority to construe a rule differently than a panel of the court has done or to change a
rule’s application. Chief Plunkett did not even essay an attempt to distinguish my situation
from those in Ochoa Canales and Nolen. How could he?
The larger problem, however, is the moving hand behind the Clerk: Circuit Judge
Willett. Allegations in my judicial-conduct complaint, previously based only on information
and belief, are made certain now by Chief Plunkett’s careful non-denial of my allegations.
Consequently, the plain facts are: in the past, as documented in published cases, motions
from litigants in procedural postures identical to mine have been heard and resolved by the
court, while mine have been cast into a procedural black hole by the Clerk at Circuit Judge
Willett's direction, never to receive the judicial scrutiny required by the rules. What sole
difference distinguishes me from those litigants? They are not pro se prisoners.
By allowing Chief Plunkett to “resolve” my claim on his mere say-so, Chief Judge
Owen has thwarted both the intent and the command of Congress. Like any other party who
can demonstrate bias in the procedural handling of a case, I am entitled to have my complaint
heard, investigated, and resolved under the terms of the statute.
34.

Broader harm—deprivation of appellate review
It bears repeating that the specific act of disparate treatment rerouted my appeal into a
procedural void. The result of the bias against my pro se pleadings is that the represented
prisoner in Ochoa Canales, and the AUSA in Nolen, received the full benefit of appellate
review—one had his petition for rehearing en banc reviewed by the entire Circuit and the
other had the clerk’s decision reviewed by a judge (who reversed the Clerk’s decision that
the original motion had been “untimely”)—while my pro se petition did not receive that
benefit and never can receive it. The Clerk’s “take no action” resolutions bring to a halt the
procedural mechanisms that invoke official judicial scrutiny. By unofficially directing the
Clerk not to act, Circuit Judge Willett singlehandedly pretermitted my appeal.
The entire point of petitions for panel rehearing and rehearing en banc is that judges
sometimes make mistakes. The federal appellate rules grant parties a right to protest those
mistakes by moving for rehearing and even, in a case where a judge or panel has departed
from precedent, by bringing a protest to an entire court of appeals. Here, Circuit Judge
Willett’s actions have deprived me of that right by acting through the Clerk to block any
review of the first reasoned decision on my requestfor COA.
There is no substitute for the right to seek judicial review in the Fifth Circuit, via
requests for rehearing, of flaws in the panel’s reasoning. No appeal of right lies from the final
decision of a court of appeals; the only potential remedy is discretionary review, in this Court,
via certiorari—but even for a meritorious case, the odds of attaining review are quite low:

35.

The primary concern of the Supreme Court is not to correct
errors in lower court decisions, but to decide cases presenting
issues of importance beyond the particular facts and parties
involved. The Court grants and hears argument in only about
1% of the cases that are filed each Term. The vast majority of
petitions are simply denied by the Court without comment or
explanation.
Office of the Clerk, Guide

for

Prospective Indigent Petitioners for Writs of

Certiorari (July 2019). So, the opportunity to correct five manifest errors in the first
reasoned decision (on panel reconsideration of the single-judge order under 5th Cir. R.
27.2) by pointing them out via requests for rehearing—to the panel or the Circuit, depending
on the nature of the error—was the only opportunity to argue for correction as a matter of
right, rather than hoping for certiorari.
Had Chief Judge Owen investigated my judicial-conduct complaint as required by
statute, she would have determined that no plausible justification exists for treating my pro
se motions for rehearing, and for reconsideration of the Clerk’s “take no action” letter,
differently than identical motions in Ochoa Canales and Nolen. Notwithstanding Chief
Deputy Plunkett’s apologia, the relevant text of the local rules has not changed; no
announcement of a new interpretation has issued; no published case (or unpublished one, for
that matter) has altered the interpretation of the rules in those two cases. No judge could
articulate a lawful basis for blocking the same procedural steps, in my pro se case, that
represented parties took in their appeals. Hence, had Chief Judge Owen followed the
procedures of 28 U.S.C. § 352, she would have sought an explanation for the disparate
treatment.
36.

Significantly, even if her investigation determined that Circuit Judge Willett’s improper
directions to the Clerk had a more innocent explanation than bias against pro se pleadings,
the judicial misconduct rules allow for correction of mistakes that lead to the appearance of
bias. See 28 U.S.C. § 352(b)(2) (allowing judicial-conduct complaints to be concluded with
“appropriate corrective action” or finding of mootness from “intervening events” ); R. Jud.
CON. & DlSAB. PROC. 11(d) (“Corrective Action”), (e) (“Intervening Events”). In my case,
that means that my complaint could have been resolved by withdrawal of Circuit Judge
Willett’s instructions to the Clerk, which would have allowed my motions for rehearing to be
considered on their merits by the panel or the Circuit. And, if they then were denied on their
merits, rather than cast into a procedural void that left no chance for judicial consideration, I
could then request certiorari from this Court.
Thus, issuing mandamus to Chief Judge Owen is in aid of this Court’s appellate
jurisdiction. The effect of proper handling for my judicial-conduct complaint would be a
finding, on investigation by Chief Judge Owen, that my procedural right to petition for
rehearing was prejudiced by judicial action, on my pro se pleadings, that is inconsistent with
the historical, precedential handling of identical pleadings by represented and governmental
parties. The resulting corrective action would have placed my case back on track for a result
on the merits—the proper result for any appellate action, whatever those merits might be.
From that point, either the State or I, if dissatisfied with the merits ruling, could seek
certiorari in this Court from a case fully heard in the Fifth Circuit.

37.

Pervasive harm—lack of federal review
Ultimately, this case is worth the Court’s limited time because mandamus provides the
most direct, efficient remedy for a case study in how habeas proceedings can go wrong.
A mandamus proceeding is not the forum to resolve my federal habeas complaint. Thus,
I have not dwelt upon my underlying habeas claim’s merits or made an in-depth argument of
the type I made in the district court. The context I have provided, however, should convince
the Court that my claims are substantial, serious, and in need of meaningful federal review.
Here, the anti-pro se bias revealed by Circuit Judge Willet’s procedural handling of my
rehearing requests, and my subsequent request for a judge to review, officially, the Clerk’s
“take no action” ruling, seems to pervade all levels of the case. If the TCCA ruled on the
merits of my state claim at all, then its ruling was unmistakably based entirely on state
procedural law. The federal district court simultaneously held that the case indeed had been
resolved on state procedural law and that deference applied—a contradiction so fundamental
that I never have heard of, or seen, a case with a similar holding. Nor is that the only
inexplicable holding: I have a Bouie claim that was resolved without discussion of Bouie and
a plea-bargain claim that failed to recognize guiding precedent.
Most significantly, I presented a thorough, meticulous case for rebutting the
presumption of a decision on the federal merits in state court, only to have it ignored
completely. This Court has said that “it is important to determine whether a federal claim was
‘adjudicated on the merits in State court, 5

5?

Williams. 568 U.S. at 292. And Richter itself,

that titan of AEDPA enforcement, took the time to remind federal courts that “[jjudges must
38.

be vigilant and independent in reviewing petitions for the writ,” 562 U.S. at 91. Neither the
district court’s snubbing of my detailed argument for rebuttal nor the per curiam denial of a
COA in appellate court satisfy the Court’s command.
The pattern here is one of judges who do not take seriously pro se petitions—who give
them scant, if any, regard, and seem inclined to accept the government’s view as a matter of
course. That pattern extended into both Circuit Judge Willett’s covert instructions to the
Clerk to treat my pleadings differently than those of represented inmates and Chief Judge
Owen’s shunting aside of my judicial-conduct complaint to Deputy Plunkett.
Perhaps there are remedies other than writ of mandamus, but all of them require writs
in this Court. I can abandon efforts to have the Fifth Circuit correct, on rehearing, manifest
errors in the per curiam denial of a COA, and instead seek certiorari from that denial, arguing
that if my issues are deemed “undebatable,” then debatability is an illusion. Or, if all efforts
to obtain a COA fail, I can bring habeas arguments directly to this Court, in the form of an
original habeas petition as extraordinary writ.
What makes those remedies less efficient is that they look to proceedings in which
judges have discretion in resolving the ultimate merits of a complaint. Chief Judge Owen’s
duties with respect to my judicial-conduct complaint, however, involve no such discretion.
She had mandatory duties under 28 U.S.C. § 352, and she laid aside those duties in favor of
32

I am aware that the Court could construe this petition as either of those, or at least note a
possible issue and invite filing of either of those, which would require service on the State via
current TDCJ Director Lumpkin. I stand ready to do so, but if the Court is inclined to exercise
such construction or to issue such invitation, I request appointment of counsel.
39.

allowing a deputy clerk to resolve my complaint. That is not allowed. Unmistakably,
inarguably, and beyond all doubt, excuse, or justification, that is not allowed.
Therefore, by taking the case on mandamus, the Court can enforce the will of Congress
and remind judges at all levels that pro se documents—whether pleadings or judicial-conduct
complaints—must be taken as seriously as those filed by attorneys. It has been quite some
time since this Court addressed courts’ duties to give effect to pro se pleadings, and my case
shows that a reminder is, perhaps, due.

CONCLUSION
The petition for writ of mandamus should be granted.

Respectfully submitted,

z
Date: September 22, 2021.

40.

